APPENDIX A

United States v. Godiksen, 841 Fed.Appx. 322 (2021)

841 Fed.Appx. 322
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
UNITED STATES of America, Appellee,
v.
James Erik GODIKSEN, Defendant-Appellant.

[4] any error in district court's supplemental instruction on
diminished capacity was not plain error;
[5] district court's erroneous conduct of engaging in open
dialogue with the jury when responding to a jury note
requesting a play of defendant's expert's cross-examination
and rebuttal was harmless; and
[6] any error in government's statement in summation that
called defendant's expert witness a “hired gun” did not
amount to plain error.
Affirmed.
Procedural Posture(s): Appellate Review; Post-Trial
Hearing Motion.
West Headnotes (6)
[1]

Homicide

Solicitation to kill

Evidence was sufficient to support finding
that defendant intended for his ex-wife to be
murdered when he used his cell phone to speak
with the undercover agent, as required to support
conviction for murder-for-hire, where there was
evidence that defendant's actions were motivated
by his perception that the divorce settlement
was lopsided, that defendant was not intoxicated
during the investigation, and that alcohol-related
deficits did not prevent him from being able to
formulate a plan to commit a crime if desired, and
there was a recording of defendant arranging for
the murder of his ex-wife. 18 U.S.C.A. § 1958.

No. 20-530
|
February 10, 2021
Synopsis
Background: Defendant was convicted in the United States
District Court for the District of Connecticut, Vanessa L.
Bryant, J., of murder-for-hire. After the District Court,
Bryant, J., 2019 WL 3457643, denied defendant's motion for
acquittal and for a new trial, defendant appealed.

Holdings: The Court of Appeals held that:
[1] evidence was sufficient to support finding that defendant
intended for his ex-wife to be murdered when he used his cell
phone to speak with the undercover agent;
[2] evidence was sufficient to support finding that defendant
gave or promised to give something of pecuniary value to the
purported hitman;
[3] any error in district court's supplemental instruction on
intent was not plain error;

[2]

Homicide

Solicitation to kill

Evidence was sufficient to support finding that
defendant gave or promised to give something
of pecuniary value to the purported hitman,
an undercover agent, as required to support
conviction for murder-for-hire, even though
recording of conversation between defendant
and the undercover agent showed that agent
first suggested the figure; recording showed
that defendant agreed to pay agent $5,000 in
exchange for the murder of his ex-wife, and that
agent repeatedly confirmed, without defendant's

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Godiksen, 841 Fed.Appx. 322 (2021)

district court made clear to the jury that the
redirect was available and asked several times
whether the jury was “certain” and “absolutely
certain” that it did not want to hear the redirect,
and the jury repeatedly confirmed, including in
writing, that it did not, and the decision to not
play back the requested testimony ultimately fell
within the district court's broad discretion.

objection, that the murder would be committed
in exchange for cash. 18 U.S.C.A. § 1958.

[3]

Criminal Law

Issues related to jury trial

Any error in district court issuing supplemental
instruction in response to a jury note requesting
the “dictionary definition” of intent that covered
general intent was not plain error in prosecution
for murder-for-hire, where the instruction was
provided in addition to, not in lieu of,
earlier instructions about specific intent, original
instructions required the jury to look into the
defendant's mind and determine the defendant's
purpose in using interstate facilities and in his
communications with the undercover agent, and
jury returned a special interrogatory that required
it to unanimously find that the government
had proved beyond a reasonable doubt that the
aforementioned travel or use of the interstate
facility was done with the intent that a murder be
committed. 18 U.S.C.A. § 1958.

[4]

Criminal Law

Criminal Law
jurors

Criminal Law
Particular statements,
arguments, and comments
Any error or prosecutorial misconduct in
government's statement in summation that called
defendant's expert witness a “hired gun” who
was “paid to do what defendant wanted, just
like the undercover” agent did not amount to
plain error in prosecution for murder-for-hire,
where government did not discourage the jury
from considering expert's testimony, pointing out
that even she, a defense witness, confirmed that
defendant could form the intent to commit the
crime.

Issues related to jury trial

Any error in district court's supplemental
instruction on diminished capacity was not
plain error in prosecution for murder-for-hire,
even though the court did, at one point,
use the term “mentally incapacitated” rather
than “diminished capacity,” where court's brief
slip did not render the instruction misleading
when considered in context, instruction correctly
referred to diminished capacity until the very end
of the instruction, and defendant never attempted
to argue a defense of complete incapacity or
insanity.

[5]

[6]

Communications by or with

District court's erroneous conduct of engaging
in open dialogue with the jury when responding
to a jury note requesting a play of defendant's
expert's cross-examination and rebuttal, without
reading the jury's note into the record or
soliciting responses from counsel, was harmless
in prosecution of defendant for murder-for-hire;

*324 Appeal from the United States District Court for the
District of Connecticut (Vanessa L. Bryant, Judge).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Attorneys and Law Firms
For Appellant: TRACY HAYES, Assistant Federal Defender,
for Terence S. Ward, Federal Defender, New Haven, CT.
For Appellee: RAHUL KALE (Marc H. Silverman, on
the brief), Assistant United States Attorneys, for John
H. Durham, United States Attorney for the District of
Connecticut, New Haven, CT.
PRESENT: DENNIS JACOBS, RICHARD J. SULLIVAN,
STEVEN J. MENASHI, Circuit Judges.

SUMMARY ORDER

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Godiksen, 841 Fed.Appx. 322 (2021)

Defendant-Appellant James Erik Godiksen appeals a
February 6, 2020 judgment of conviction, entered after a
jury trial, for one count of murder-for-hire in violation of
18 U.S.C. § 1958. The district court (Bryant, J.) principally
sentenced Godiksen to 120 months’ imprisonment. On
appeal, Godiksen challenges the denial of his motions for
a judgment of acquittal and for a new trial, and argues
that the district court made several legal errors, each
requiring reversal. We assume the parties’ familiarity with the
underlying facts, procedural history, and issues on appeal.
I. Sufficiency of the evidence
Godiksen challenges the sufficiency of the evidence
underlying his conviction in two respects. First, Godiksen
argues that the government failed to prove that he had
the specific intent to murder his ex-wife when he used a
facility of interstate commerce – his cell phone – as required
under the statute. Second, Godiksen contends that there
was insufficient evidence that, in exchange for his ex-wife's
murder, he gave or promised something of pecuniary value to
the purported hitman, who was actually an undercover agent.
Both arguments lack merit.
This Court “review[s] de novo the sufficiency of evidence and
the district court's denial of a Rule 29 motion for judgment
of acquittal.” United States v. Bramer, 956 F.3d 91, 96 (2d
Cir. 2020). “A defendant challenging the sufficiency of the
evidence bears a heavy burden because a reviewing court
must consider the evidence in the light most favorable to the
prosecution and uphold the conviction if any rational trier
of fact could have found the essential elements of the crime
beyond a reasonable doubt.” Id. (internal quotation marks
omitted).
[1] Sufficient evidence supports the jury's conclusion that
Godiksen intended for his ex-wife to be murdered when he
used his cell phone to speak with the undercover agent. The
government's theory at trial – that Godiksen ordered the hit
on his wife because she wronged him, including financially,
in their divorce – was not contrary to the evidence. While
Godiksen could, and did, argue that he in fact retained certain
assets, including title to his Corvette and his dog, there
was ample evidence, including Godiksen's own words, from
which the jury could conclude that his actions were motivated
by his perception that the divorce settlement was lopsided.
Nor was the jury required to accept Godiksen's assertion
that he was intoxicated or suffering from alcohol-related
deficits that prevented him from forming the *325 requisite

intent for the murder-for-hire. To the contrary, the jury heard
testimony from government agents that Godiksen was not
intoxicated during the investigation, and even Godiksen's
own expert, Dr. Madelon Baranoski, acknowledged that
Godiksen's alcohol-related deficits did not prevent him from
being able to formulate a plan to commit a crime if desired.
This testimony, coupled with the recordings of Godiksen
arranging for the murder of his ex-wife, was more than
sufficient to establish his intent to commit murder-for-hire.
[2] Godiksen fares no better with his contention that the
evidence was insufficient to show pecuniary consideration.
As relevant to § 1958, the promise of “an unspecified favor,”
such as “[a]nything [the hired killer] need[s],” cannot support
a finding of pecuniary value, unless the record contains some
evidence that the parties understood the form the favor would
actually take. United States v. Babilonia, 854 F.3d 163, 175
(2d Cir. 2017) (first alteration in original) (internal quotation
marks omitted). But the record need only be sufficient for the
jury to reasonably find that the parties agreed “that the murder
would be carried out in exchange for financial compensation”
like “money.” Id. at 176 (explaining that the jury need not
“divine the precise nature of th[e] consideration”).
The evidence at trial included recordings of Godiksen
agreeing to pay the undercover agent $5,000 in exchange for
the murder. That figure may have first been suggested by
the agent, but Godiksen expressly agreed to the $5,000 as
“fine” and “fair,” Gov't App'x at 221, and the agent repeatedly
confirmed, without objection from Godiksen, that the murder
would be committed in exchange for cash. As a result, there
was ample evidence from which the jury could find that
Godiksen “specifically intended that [the undercover agent]
would be paid in exchange for committing the murder.”
Babilonia, 854 F.3d at 177. That he had not yet taken steps
to withdraw the promised payment from his account is of no
moment.
II. Jury instructions
Godiksen next challenges two supplemental jury instructions
given at trial. First, he argues that the district court
impermissibly lowered the government's burden of proof on
intent, because the court incorrectly instructed the jury on the
definition of general, not specific, intent. Second, he contends
that the district court conflated mental incapacitation and
diminished capacity, confusing the jury. Because Godiksen
did not object to either instruction at trial, we review for plain
error. United States v. Miller, 116 F.3d 641, 672 (2d Cir. 1997).

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Godiksen, 841 Fed.Appx. 322 (2021)

[3] It was not plain error for the district court to issue its
supplemental instruction in response to a jury note requesting
the “dictionary definition” of intent. Although the district
court ultimately gave – without objection – an instruction on
general intent from this Court's opinion in United States v.
Bell, 584 F.3d 478, 484 (2d Cir. 2009), the instruction was
provided in addition to, not in lieu of, earlier instructions
about specific intent. Those original instructions expressly
provided that the government was required to prove that
Godiksen used an interstate facility “with the intent to further
or facilitate the commission of murder,” thus requiring the
jury “to look into the defendant's mind and determine the
defendant's purpose in using interstate facilities and in his
communications with” the undercover agent. Gov't App'x at
196. In context, we see little room for confusion, particularly
since the jury returned a special interrogatory that required it
to “unanimously find that the [g]overnment has *326 proved
beyond a reasonable doubt that the aforementioned travel or
use of the interstate facility was done with the intent that a
murder be committed in violation of the laws of any State of
the United States.” J. App'x at 75.
[4] Godiksen's challenge to the district court's supplemental
instruction on diminished capacity is equally unpersuasive.
Although it is true that the district court did, at one point,
use the term “mentally incapacitated” rather than “diminished
capacity,” that brief slip did not render the instruction
misleading when considered in context. Significantly, the
instruction correctly referred to “diminished capacity” until
the very end of the instruction, and in any event, the record
is clear that Godiksen never attempted to argue a defense of
complete incapacity or insanity. See No. 3:16-cr-178-VLB,
Doc. No. 148 at 5 (defense counsel disclaiming the insanity
defense and explaining its diminished capacity defense).
Under these circumstances, Godiksen cannot prove plain
error that affected his substantial rights.
III. Jury request for playback or readback of
testimony
[5] Next, Godiksen argues that the district court denied him a
fair trial by improperly responding to a jury note requesting a
playback of Dr. Baranoski's cross-examination and “rebuttal.”
He contends that the district court erred when it failed to
read the note into the record, neglected to solicit the parties’
responses on the proper course of action, and communicated
orally with the jury in open court. Although we agree that the
district court erred in conducting an open dialogue with the
jury, we find that the error ultimately was harmless.

We have previously articulated a four-step “procedure that a
trial judge should normally follow in responding to an inquiry
from a jury during the course of jury deliberations.” United
States v. Ulloa, 882 F.2d 41, 42 (2d Cir. 1989). Those steps
– referred to as the Ronder procedure – require that (1) the
jury's questions be submitted in writing; (2) the court mark
the question as a court exhibit and read it into the record; (3)
the court afford counsel an opportunity to suggest appropriate
responses; and (4) the question, if substantive, be read into
the record in the jury's presence once the jurors are recalled.
Id. at 45 (citing United States v. Ronder, 639 F.2d 931, 934
(2d Cir. 1981)).
Nevertheless, we are “[m]indful that trial judges must be
permitted some latitude in determining how best to handle
jury inquiries.” Id. We have thus “accepted substantial
compliance with the Ronder procedure,” examining whether
the defendant has suffered prejudice as a prerequisite for
reversal. Id.; see also United States v. Leung, 40 F.3d 577,
584 (2d Cir. 1994) (applying harmless error analysis to court's
failure to convey in advance to counsel jury's request for
certain transcripts); United States v. Adeniji, 31 F.3d 58, 65
(2d Cir. 1994) (“[N]oncompliance with this procedure does
not mandate reversal unless prejudice is shown.”).
When a jury requests to read or hear trial testimony again,
“a court's response to a jury request for a readback should
balance the jurors’ need to review the evidence before
reaching their verdict against the difficulty involved in
locating the testimony to be read back, the possibility of
undue emphasis on a particular portion of testimony read out
of context, and the possibility of undue delay in the trial.”
United States v. Criollo, 962 F.2d 241, 243 (2d Cir. 1992).
The decision of whether to play back requested testimony “is
within the court's broad discretion.” Id.
*327 Here, the district court undoubtedly failed to adhere
to the Ronder procedure when it did not read the jury's note
into the record or solicit responses from counsel; the district
court then compounded the problem when it engaged in oral
colloquies with the jury. But Godiksen fails to show that this
caused him any prejudice. To the contrary, the district court
made clear to the jury that the redirect was available and asked
several times whether the jury was “certain” and “absolutely
certain” that it did not want to hear the redirect. Gov't App'x at
205. The jury repeatedly confirmed, including in writing, that
it did not. Since the decision to not play back the requested
testimony ultimately fell within the district court's broad
discretion, Godiksen cannot show prejudice from the district

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Godiksen, 841 Fed.Appx. 322 (2021)

court's departure from Ronder. See United States v. Holmes,
863 F.2d 4, 6 (2d Cir. 1988).
IV. Prosecutorial misconduct
[6] Godiksen further contends that certain of the
government's statements in its summation and rebuttal
summation constituted prosecutorial misconduct that
prejudiced Godiksen. We disagree.
“[A] defendant who seeks to overturn his conviction based
on alleged prosecutorial misconduct in summation bears
a heavy burden,” as “[h]e must show more than that a
particular summation comment was improper.” United States
v. Farhane, 634 F.3d 127, 167 (2d Cir. 2011) (internal
quotation marks omitted). “The law has long recognized
that summations” and rebuttal summations “are not detached
expositions,” so “courts will not lightly infer that every
remark is intended to carry its most dangerous meaning.” Id.
(internal quotation marks omitted).
To prevail in requesting a new trial because of summation
misconduct, the defendant must show that the alleged
misconduct, “when viewed against the entire argument to the
jury, and in the context of the entire trial, was so severe and
significant as to have substantially prejudiced him, depriving
him of a fair trial.” Id. (internal citations and quotation marks
omitted); see United States v. Rodriguez, 968 F.2d 130, 142
(2d Cir.1992) (noting that only in a “rare case” will improper
summation comments be “so prejudicial” as to warrant
new trial (internal quotation marks omitted)). “In assessing
whether a defendant has been substantially prejudiced, we
consider the severity of the misconduct, the curative measures
taken, and the certainty of conviction absent the misconduct.”
United States v. Binday, 804 F.3d 558, 586 (2d Cir. 2015)
(internal quotation marks omitted).
A defendant who, like Godiksen, “did not object at trial
to the statements forming the basis of his appeal” faces an
even steeper climb, because we apply plain error review.
United States v. Williams, 690 F.3d 70, 75 (2d Cir. 2012).
This plain error standard requires the Court to reject any
error that does not “amount to flagrant abuse” that “seriously
affects the fairness, integrity, or public reputation of judicial
proceedings,” in addition to causing the defendant substantial
prejudice. Id.

End of Document

Godiksen's myriad claims of error all fail, largely for the
reasons discussed by the district court. Godiksen argues
that the government disparaged his witness by calling Dr.
Baranoski a “hired gun” who was “paid to do what [Godiksen]
wanted, just like the undercover.” Godiksen's Br. at 48
(quoting Gov't App'x at 171). But the government did
not discourage the jury from considering Dr. Baranoski's
testimony, pointing out that even she, a defense witness,
confirmed that Godiksen could form the intent to commit
a crime. Godiksen's other objections to the summation are
largely frivolous and amount, at most, *328 to stray remarks
that cannot seriously be said to have unfairly prejudiced
Godiksen at trial.
V. New trial
Finally, Godiksen argues that the district court erred in
denying his motion for a new trial, given the purported errors
he raises. We review the district court's exercise of its broad
discretion for abuse, see United States v. DiTomasso, 932 F.3d
58, 70 (2d Cir. 2019), and find none.
Under Rule 33, a district court may “grant a new trial [to
a defendant] if the interest of justice so requires.” Fed. R.
Crim. P. 33. “Where testimony is patently incredible or defies
physical realities, it may be rejected by the court, despite the
jury's evaluation.” United States v. Sanchez, 969 F.2d 1409,
1414 (2d Cir. 1992). Nevertheless, “[w]hile we have held
that a district court may grant a new trial if the evidence
does not support the verdict, we have emphasized that such
action must be done sparingly and in the most extraordinary
circumstances.” United States v. Archer, 977 F.3d 181, 187–
88 (2d Cir. 2020) (internal quotation marks omitted).
As noted, any errors in the trial were harmless and not a basis
for vacatur. Given this, and because the evidence supports the
verdict, we affirm the district court's denial of the Rule 33
motion as a wise exercise of its discretion.
We have considered Godiksen's remaining arguments and
find them to be meritless. Accordingly, we AFFIRM the
judgment of the district court.
All Citations
841 Fed.Appx. 322

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

